<html>
<title> - BACK TO WORK: EMPOWERING ALABAMA'S AGING WORKFORCE</title>
<body><pre>[Senate Hearing 115-746]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-746

                   BACK TO WORK: EMPOWERING ALABAMA'S 
                            AGING WORKFORCE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                          BIRMINGHAM, ALABAMA

                               __________

                           NOVEMBER 30, 2018

                               __________

                           Serial No. 115-23

         Printed for the use of the Special Committee on Aging

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov                       
                      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-823 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                       
                       SPECIAL COMMITTEE ON AGING

                   SUSAN M. COLLINS, Maine, Chairman

ORRIN G. HATCH, Utah                 ROBERT P. CASEY, JR., Pennsylvania
JEFF FLAKE, Arizona                  BILL NELSON, Florida
TIM SCOTT, South Carolina            KIRSTEN E. GILLIBRAND, New York
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
BOB CORKER, Tennessee                JOE DONNELLY, Indiana
RICHARD BURR, North Carolina         ELIZABETH WARREN, Massachusetts
MARCO RUBIO, Florida                 CATHERINE CORTEZ MASTO, Nevada
DEB FISCHER, Nebraska                DOUG JONES, Alabama

                              ---------- 
                              
                 Kevin Kelley, Majority Staff Director
                  Kate Mevis, Minority Staff Director
                                
                               CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Doug Jones..........................     1

                                APPENDIX
                           PANEL OF WITNESSES

Dr. Tamara Payne, Director of Career and Learning Services, 
  Jefferson State Community College, Birmingham, Alabama.........     3
Montina Dorsey-Collins, Back to Work 50+ Participant, Birmingham, 
  Alabama........................................................     4
Lori Strauss, Manager of Workforce Programs, AARP Foundation, 
  Washington, DC.................................................     5
Sheila Baker, Director of Senior Community Service Employment 
  Programs, Middle Alabama Area Agency On Aging, Birmingham, 
  Alabama........................................................     7
Doug Dean, Chief of Human Resources, Children's of Alabama, 
  Birmingham, Alabama............................................     8

                      Prepared Witness Statements

Dr. Tamara Payne, Director of Career and Learning Services, 
  Jefferson State Community College, Birmingham, Alabama.........    24
Montina Dorsey-Collins, Back to Work 50+ Participant, Birmingham, 
  Alabama........................................................    27
Lori Strauss, Manager of Workforce Programs, AARP Foundation, 
  Washington, DC.................................................    28
Sheila Baker, Director of Senior Community Service Employment 
  Programs, Middle Alabama Area Agency On Aging, Birmingham, 
  Alabama........................................................    34
Doug Dean, Chief of Human Resources, Children's of Alabama, 
  Birmingham, Alabama............................................    36

                  Additional Statements for the Record

Ramona Reach, Office Manager, Acton Road Pediatrics, LLC, 
  Birmingham, Alabama............................................    38

 
           BACK TO WORK: EMPOWERING ALABAMA'S AGING WORKFORCE

                              ----------                              


                       FRIDAY, NOVEMBER 30, 2018

                                       U.S. Senate,
                                Special Committee on Aging,
                                               Birmingham, Alabama.
    The Committee met, pursuant to notice, at 1:27 p.m., at 
Jefferson State Community College, Shelby Campus, 4600 
Valleydale Road, Birmingham, Alabama, Hon. Doug Jones, 
presiding.
    Present: Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. All right. Good afternoon, everyone, and 
welcome to this field hearing called ``Back to Work: Empowering 
Alabama's Aging Workforce.''
    I apologize for my voice. It is not because I have been 
yelling at Senator McConnell and Senator Schumer, but it just 
happens on occasion. So I am going to try to make sure I get 
through all of this, with the statement and questions, but my 
Deputy Legislative Director, Katie Campbell, who is on a phone 
call out there, will be joining us shortly, so I will turn it 
to her in case I just completely wear out.
    Folks, this is a unique opportunity to bring the work of 
the Senate Special Committee on Aging to Alabama. I want to 
thank Chairwoman Susan Collins and Ranking Member Bob Casey and 
their staff for helping facilitate this hearing. It has been a 
privilege to serve on this Committee this year since taking 
office in January, though I often tell folks that I was placed 
on the Aging Committee not as a member but as an exhibit.
    [Laughter.]
    Senator Jones. I want to also thank our witnesses who are 
here today. Each of you bring a unique perspective on the 
workplace and employment issues facing older workers. I 
appreciate your willingness to share your expertise and 
insights with us today. Your input will be valuable as this 
Committee works to serve our seniors.
    Both in Alabama and across the country, our population is 
aging rapidly. Our labor force is aging as well. In 2006, 
workers ages 55 and over represented just 16 percent of 
American workers. In 2016, that number had grown to 22 percent, 
and by 2026, older workers will account for nearly one-quarter 
of the U.S. labor force.
    Employment has many benefits for older workers, including 
improved health, cognition, and overall well-being. It also has 
clear financial benefits. In addition to providing workers with 
a steady source of income, continuing to work can improve 
retirement security. Additional working years can provide 
individuals with more time to save and with increased Social 
Security benefits when they do retire.
    Unfortunately, many older Americans who would like to work 
or continue working are limited in their ability to do so. 
Unemployment disproportionately affects older adults. Across 
the country more than three million older adults are searching 
for full-time work. Many more find themselves on a plateau in 
their current job and face challenges finding a better job 
elsewhere.
    In addition to facing age discrimination and the difficulty 
of managing health problems, many older adults who are looking 
for work find they need to update their professional skills or 
learn new ones. Older workers who face these challenges tend to 
experience extended periods of unemployment and may leave the 
labor force altogether.
    Despite these challenges, there are efforts at the local, 
state, and federal level to help seniors maintain and achieve 
fulfilling careers. Federal programs like the Senior Community 
Employment Service Program and local initiatives like Back to 
Work 50+ Program have helped to provide thousands of older 
workers with the training and support they need to advance 
their careers and find high-quality employment opportunities.
    I am delighted to have representatives from both those 
programs on our panel of witnesses today. I am eager to learn 
more about your experiences working on this important issue, 
and I hope we can also use this opportunity to identify ways 
that Congress can help support your efforts. So thanks again 
for coming and for your service to Alabama's older workers.
    I want to turn this over to our panel, and we will go in 
this order. I want to introduce our panelists, and then I will 
ask each of them to make an opening statement, and then we will 
just get into questions and answers and maybe even a dialog.
    First we will hear from Dr. Tamara Payne, the director of 
Career and Learning Services here at Jefferson State. Dr. Payne 
oversees the school's career center and is project director for 
its Back to Work 50+ Program. Dr. Payne will tell us about 
Jefferson State's efforts to support older workers, including 
the women's Economic Stability Initiative.
    Next we will hear from Ms. Montina Dorsey-Collins, a Back 
to Work 50+ participant. After completing the Back to Work 
Program, Ms. Dorsey-Collins received a scholarship from the 
Manufacturing Skill Standards Council for its Certified Product 
Technician Program at Jefferson State. I look forward to 
hearing more about your experience in the Back to Work 50+ 
Program, Ms. Dorsey-Collins.
    I am also grateful to have Ms. Lori Strauss with us today. 
Ms. Strauss has joined us from the AARP Foundation in 
Washington, DC, where she serves as the manager of workforce 
programs. Ms. Strauss leads the Back to Work 50+ national 
program and will tell us about the AARP Foundation's workforce 
initiatives.
    Ms. Sheila Baker joins us from the Middle Alabama Area 
Agency on Aging, also known as M4A. There Ms. Baker administers 
the Senior Community Service Employment Program for Shelby, 
Jefferson, Blount, Chilton, St. Clair, and Walker counties. Ms. 
Baker will discuss the SCSEP program and its impact on older 
workers in Alabama.
    Last, but not least, we will hear from Mr. Doug Dean, the 
Chief of Human Resources at Children's of Alabama. Children's 
has shown an impressive leadership in promoting age diversity 
with baby boomers accounting for a quarter of his workforce. 
Mr. Dean will tell us more about Children's efforts to support 
older workers and the many benefits of doing so.
    I have also promised Mr. Dean that I would not discuss 
another program that he and I participate in for folks over the 
age of 50, and that is what is known as the BBB baseball game 
out at Rickwood. For over 50-plus folks, we play a ball game 
every year, or try to, known as ``Beer, Baseball, and Ben 
Gay.''
    [Laughter.]
    Senator Jones. I have promised not to ask Mr. Dean any 
questions regarding his baseball skills, and he has promised 
not to make any comment about mine.
    So, with that, I would like to turn it over to--let us go 
in the order that I introduced folks. If we could hear from Dr. 
Payne first, the director of Career and Learning Services here 
at Jefferson State.

STATEMENT OF DR. TAMARA PAYNE, DIRECTOR OF CAREER AND LEARNING 
  SERVICES, JEFFERSON STATE COMMUNITY COLLEGE, BIRMINGHAM, AL

    Dr. Payne. Thank you. Good afternoon, Senator Jones and 
other members of the Senate Special Committee on Aging field 
hearing. I am honored to speak with you this afternoon 
regarding the Back to Work 50+ Program at Jefferson State 
Community College and the unique needs that are faced by 50+ 
job seekers. Jefferson State has been fortunate to be a part of 
the Back to Work 50+ Network since the latter half of 2014, and 
in 2016 we welcomed the Women's Economic Stability Initiative, 
the WESI family.
    The major components of the Back to Work 50+ program is 
that participants are invited to a 7 Smart Strategies Workshop 
where we discuss the seven effective habits for 50+ job 
seekers. From there, participants are accepted into the 
program, and we do deep dives into individual and group 
coaching, and we also do a computer skills assessment because 
we have learned that our Back to Work 50+ candidates are 
sometimes lacking in those basic computer skills, and that has 
been an immense barrier to employment.
    After success with the Back to Work 50+ classic program, we 
were approached by AARP Foundation with thoughts of 
participating in the Back to Work 50+ WESI Program. As I 
mentioned earlier, that is the Women's Economic Stability 
Initiative, and it has more of a focus on 50+ candidates that 
are female.
    Some Alabama figures specifically related to unemployment. 
As of 2018, 16.9 percent of women in Alabama ages 60 to 64 are 
underemployed. As of October 2018, women ages 50 to 64 spent 
over 30 weeks of time unemployed when compared to the average 
of ten weeks by their counterparts ages 20 to 24. So Jefferson 
State's selection as a WESI partner was an indicator of our 
success with the classic program, but it also hinged upon the 
needs of female candidates ages 50+ in Alabama.
    Specific outcomes for Back to Work 50+ at Jefferson State: 
Since 2014, we have served over 853 50+ job seekers; 133 
individuals received individual and group coaching, and 179 50+ 
candidates have been hired with an average wage of $13 an hour.
    Some indicators for success: We suggest that you use a 
cohort model when you are working with 50+ job candidates 
because sometimes you can feel isolated, and you can think that 
you are the only individual that is at this stage in your life, 
and we like for them to see faces and hear stories that mirror 
their own. We love the fact that it embeds basic and 
intermediate computer skills because, again, we want to focus 
on skills that are lacking. We found that some of our Back to 
Work 50+ candidates had these skills, and we need to redevelop 
them. And we also found that more than half of our candidates 
lack the skills.
    We look at short-term, industry-focused training programs 
that are hinged upon in-demand jobs, because we do not want 
them to finish a program that is designed for their unique 
needs and still be in the same economic position.
    We also love embedding mock interviews with local employers 
so that way they get feedback not just from their coaches but 
the potential individuals or entities that are going to hire 
them. And we love to highlight success stories. We want our 
Back to Work 50+ candidates to see faces and hear stories, 
again, that mirror their own and hear what happened once they 
came into your program.
    We are going to end my segment with a video that highlights 
both Jefferson State Community College's partnership with AARP 
Foundation, and it highlights some of our Back to Work 50+ WESI 
candidates and their success stories.
    [Videotape played.]
    Thank you.
    Senator Jones. Very nice. Thank you very much for that.
    So next we will hear from Ms. Montina Dorsey-Collins.

     STATEMENT OF MONTINA DORSEY-COLLINS, BACK TO WORK 50+ 
                  PARTICIPANT, BIRMINGHAM, AL

    Ms. Dorsey-Collins. Thank you. Again, my name is Montina 
Dorsey-Collins, and I have been through the Back to Work 50+ 
Program at Jefferson State College, and I cannot say enough 
good things about it. My experience has been exceptional. From 
excellent life coaching and learning new skills and the 
wonderful support that I have from being in the Back to Work 
50+ involvement has taught me that I am not alone in my search 
for a better job.
    I accidentally found the program by going to the state 
employment office located at the One Stop Career Center on the 
campus. They recommended the program to me, and I went to the 
information session where I learned about the program and the 
strategies for gaining employment for people over 50. Finding a 
job is so different than it was when I first started working.
    My Back to Work 50+ coaching sessions were invaluable. We 
talked about the difficulties of finding new and better 
employment for people over the age of 50. The coaching helped 
me to see the value in myself and the many skills that I 
already possess.
    The program has offered me fantastic technical skills and 
refresher skills. The program led me to Ready to Work, and now 
I am in the Certified Production Technician program. These 
classes have taught me technology basics, workplace behaviors, 
resume building, and it has taught me how to find and apply for 
jobs online. My Certified Production Technician classes are 
also preparing me for a career in the automotive manufacturing 
industry, and I am looking forward to a career that will change 
my life and give me the new skills that I need.
    And, last, I cannot say enough about the Back to Work 50+ 
staff. I am currently working selling cemetery plots and 
headstones. My current job has no advancement opportunities, 
and my income is solely based on sales. My coaches have taught 
me and have taken the time to have one-on-one sessions with me 
to discuss my needs and where I want to be in my career and 
where it should take me from here. They have helped me to see 
the need for certification training and how it can help my 
career objectives.
    I am grateful to have found such a great opportunity 
through the Back to Work 50+ Program, and I know that it has 
helped me, and I know it can help others.
    Thank you.
    Senator Jones. Thank you, ma'am.
    Next I will turn to Ms. Lori Strauss with the national AARP 
Foundation.

STATEMENT OF LORI STRAUSS, MANAGER OF WORKFORCE PROGRAMS, AARP 
                   FOUNDATION, WASHINGTON, DC

    Ms. Strauss. Thank you. Senator Jones and members and staff 
of the Committee, AARP Foundation thanks you for inviting us to 
testify at today's hearing to discuss how we can empower and 
equip older workers to meet the challenges and opportunities 
presented by an aging workforce. With nearly 38 million members 
nationwide and more than 440,000 members in Alabama, AARP is 
the Nation's largest nonprofit, nonpartisan organization 
dedicated to empowering Americans 50 and older to choose how 
they live as they age. I am Lori Strauss, the workforce 
programs manager for AARP Foundation, and right now I am 
feeling really proud to be one of the people who started this 
program. At AARP Foundation, we work to end senior poverty by 
helping vulnerable older adults build economic opportunity and 
social connectedness. As AARP's charitable affiliate, we serve 
AARP members and nonmembers alike.
    Today I am going to talk about how, together, all of us 
help older workers battle age discrimination, build new skills, 
and regain their confidence so they can stay employed and avoid 
poverty.
    I am going to start with a few statistics: 32 percent of 
Alabama's workforce today is over 50, and by 2022, 35 percent 
of the U.S. workforce will be 50 or older. In fact, the labor 
force participation rate for retirement age workers has 
increased substantially, as you heard from the Senator, and 
they are now the fastest growing age group in the workforce.
    But despite their increasing presence, older workers still 
face barriers, and age discrimination is a significant 
challenge. Our legal advocacy unit, AARP Foundation Litigation, 
is challenging age discrimination in court, and AARP and AARP 
Foundation believe that it is well past time to update and 
strengthen the ADEA by passing the bipartisan Protecting Older 
Workers Against Discrimination Act, sponsored and cosponsored 
respectively by the Ranking Member and the Chairman of this 
Committee.
    Next I am going to talk about how we help older workers 
build the skills and regain the confidence through our 
workforce programs, and you have heard some of that already.
    SCSEP, short for the Senior Community Service Employment 
Program, is authorized by the Older Americans Act and funded by 
the U.S. Department of Labor. We have administered the program 
for 50 years and currently support over 80 sites across the 
country, including the state grants for Florida, Washington, 
and Missouri. In 2017, we placed more than 3,300 participants 
in jobs. However, at the current funding levels nationally, 
SCSEP only is able to serve one percent of the eligible 
population.
    Our newest program, Back to Work 50+, was born out of this 
deep knowledge of the needs and the challenges faced by older 
workers and our daily experience that there are so many more 
people that need assistance than we could help with that 
program.
    So we designed Back to Work 50+ to provide training, 
coaching, and job-seeking tools that are delivered through a 
trained contact center and a network of local workforce 
development organizations who host community workshops and then 
offer the coaching program that you have just heard about.
    Each year we respond to at least 20,000 older workers who 
call our call center, and we connect those callers to local 
American Job Centers and SCSEP programs, and we mail them 
copies of this guide that we created called ``7 Smart 
Strategies'' that the whole program is based on. We mail that 
guide to people who are outside of 25 miles of one of our local 
program sites.
    Since 2013, 15,000 older workers attended over 1,200 Smart 
Strategies Workshops hosted by our local partners. Seventy-
three percent of the people who attended were unemployed; 84 
percent were low-income and 50+; 32 percent were African 
American, and 48 percent were white. And we are proud to show 
that this program is helping workers obtain full-time jobs 
where 77 percent of the workers who reported employment held 
full-time jobs with an average wage of $15 an hour. Back to 
Work 50+ is a national network with a local focus, and a list 
of current partners is included in my written testimony.
    As you have heard from my colleague Dr. Payne, this is what 
a very specific Back to Work 50+ Program looks like, and the 
AARP Foundation's goal is to help low-income 50+ workers by 
continuing to build alliances with the public workforce system, 
with community colleges, American Job Centers, and nonprofit 
workforce development organizations like Jefferson State 
College, who share a commitment to older workers.
    The upcoming WIOA reauthorization will provide Congress 
with the opportunity to ensure that the job search and 
workforce development needs of older workers are more 
effectively addressed.
    Much, much more can and needs to be done to ensure that 
older workers can continue to make valuable contributions to 
their employers, the economy, and the Nation as a whole. AARP 
Foundation again thanks the Committee for inviting us to 
testify, and we look forward to answering any questions that 
you have.
    Senator Jones. Thank you, Ms. Strauss.
    Next let us turn to Ms. Sheila Baker of the Middle Alabama 
Area Agency on Aging.

STATEMENT OF SHEILA BAKER, DIRECTOR OF SENIOR COMMUNITY SERVICE 
  EMPLOYMENT PROGRAMS (SCSEP), MIDDLE ALABAMA AREA AGENCY ON 
                     AGING, BIRMINGHAM, AL

    Ms. Baker. Good afternoon. Again, I am Sheila Baker, and I 
am employed with Middle Alabama Area Agency on Aging, and I am 
director of the Senior Employment Program that was previously 
mentioned.
    SCSEP, as we call is, is a national program that provides 
qualified, low-income adults, 55 years and older, with part-
time subsidized employment. ``Subsidized'' means that they are 
paid, of course, through the program, and they are providing 
services through host agencies, as we call them, and those host 
agencies will be either government or nonprofit agencies within 
the communities. SCSEP is authorized by the Older Americans Act 
and is administered, as mentioned previously, by the Department 
of Labor Employment and Training Administration and is 
administered by Middle Alabama Area Agency on Aging. We have 
two programs. We have a state program; that funding comes 
directly from the State of Alabama Older Adult Services. Also 
we have a federal program that comes from Senior Service 
America. But funding from both programs comes through the 
Department of Labor.
    SCSEP was created in 1965, and it is the oldest program 
that helps low employment individuals aged 55 and older to find 
employment. We match seniors with host agencies based on their 
interest in employment. A lot of people are very interested 
nowadays in receptionist positions. Those positions, of course, 
require computer training, so what we do is we try to match 
that participant with the host agency that they can receive 
that computer training that is needed. Often that is difficult. 
It is difficult for a few reasons. One reason it is difficult 
is because a lot of the host agencies we have are government 
agencies, and they cannot have clearance to use the computers 
at the worksite.
    The other thing is it is difficult because a lot of seniors 
have never used a computer before, and so it is very difficult 
if they have not used the computer before. We have done some 
things to try to work with that or to change that. One of the 
things that we have done is the program that we provide 
computer training by partnering with libraries, senior centers, 
and any other agency in the community that has a computer lab, 
like a community action agency. And that is by using also a 
computer program that is called ``Generations Online,'' and it 
was developed just for seniors who have never used a computer.
    SCSEP participants, as I mentioned, must be 55 years and 
older. They must have a family income of no more than 125 
percent of the federal poverty level. Enrollment priority is 
given to veterans, their qualified spouses, individuals who are 
75 years or older, have a disability, have low literacy skills 
or limited English proficiency, or reside in a rural area, are 
homeless or at risk of being homelessness. Currently, M4A has a 
waiting list for this program of 350+ participants in our six-
county area.
    M4A, however, is committed to making it possible for low-
income and other disadvantaged adults participate fully to 
determine their own future and the future of their communities. 
M4A provides opportunities to low-income participants, as I 
stated, in six counties, which are Blount, Chilton, St. Clair, 
Shelby, Walker, and Jefferson counties. Participants not only 
receive training at their host agency but can attend computer 
classes, as I mentioned, at various locations.
    Some of the numbers that I have is that 32 percent are 65 
years and older; 13 percent are 70 years or older; 65 percent 
of the participants are women; 49 percent of those women are 
racial or ethnic minority; 20 percent of those have at least 
one disability; 43 percent or more have some college; 39 
percent have high school; 18 percent do not have high school; 
and 13 percent are veterans; 28 percent live in rural areas. 
M4A currently has 17 federal slots and 12 state slots. We often 
over-enroll and are looking to find jobs all the time. So if 
anyone is interested in hiring participants, please contact us.
    Thank you.
    Senator Jones. Thank you.
    Finally, we will hear from Mr. Doug Dean, vice president of 
human resources at Children's of Alabama.

     STATEMENT OF DOUG DEAN, CHIEF HUMAN RESOURCE OFFICER, 
             CHILDREN'S OF ALABAMA, BIRMINGHAM, AL

    Mr. Dean. Thank you. And, Sheila, I will be in touch with 
you immediately following this.
    Thank you. I am Doug Dean. I am chief H.R. officer at 
Children's of Alabama. Next March will be my 20th year at 
Children's. We are approaching right at 5,000 employees these 
days as Alabama's premier and comprehensive provider of 
pediatric health care services for the children of Alabama and 
surrounding states.
    I cannot miss the opportunity to assure our distinguished 
Senator that I am with you on what happens at historic Rickwood 
Field once a year stays at Rickwood Field. However, I do feel 
it a little cruel on your part, Senator, that you invited me to 
sit as a witness on this panel on the occasion of my 60th 
birthday today.
    Senator Jones. All right.
    [Applause.]
    Mr. Dean. So believe me when I say I have self-interest 
like maybe some of you in the importance of this issue.
    My statement briefly: The fulfillment of our vital mission 
at Children's of Alabama rises and falls in large part as a 
result of attracting, developing, and certainly retaining 
highly skilled talent to deliver safe, quality care to children 
and their families with excellent outcomes. We are not here to 
take a straw poll, but I know without asking--if I asked for a 
show of hand have you had a child, a grandchild, a relative who 
has been touched by our services, even in the last year, most 
everyone in the room would likely raise their hand. So we 
understand how embedded in our community our mission is as a 
not-for-profit organization.
    As it relates to this Special Committee on Aging, which I 
am cheering on, Senator, and your fine work--and I know I speak 
for my other human resource executive colleagues in saying 
that--I would say in the recent decade, a key focus of our 
strategy at Children's of Alabama has been to work very hard to 
understand our workforce demographics. I refer to it as 
``segmented marketing,'' if you swim in those waters, that 
instead of one size fits all, whether it be your customer in 
retail or my customer, our employees and our prospective 
employees, it is important to understand everything that makes 
those segments tick and why they would want to be part of your 
team, what skills they need, what they are looking for in their 
quality of work life, and then to do what is not always easy 
for us when you have got 100 years of habits, mostly good 
habits, with our management practices, we are having to re-
skill ourselves as leaders to customize--and that is a word I 
like, to customize our workplace practices to recruiting and 
retention of those defined segments.
    So what about the older worker segment of our workforce? 
Today Children's of Alabama workforce is comprised of 25 
percent boomers--and we are actually starting to break that 
into two parts: the newer boomers, which are in their 50's, and 
we have a significant--that is 15 percent in our case; ten 
percent of our workforce are the older boomers that are 60+.
    I am proud to report that our own CEO--I already `fessed' 
up as to the milestone I hit today, but our CEO, the legendary 
leader in Birmingham, Mike Warren, would not mind me saying 
that he is pushing 70, Suzanne, if he has not already arrived, 
and you would not be able to tell. He runs circles around the 
rest of us in terms of energy and talent and drive.
    So today we are 25 percent boomers, baby boomers, that is 
the 53 to 70 age band; 26 percent Gen X, 36 to 52 age band; and 
clearly on the rise, in our case, of necessity, we are an 
astounding 49 percent millennials running Children's of 
Alabama. It is kind of shocking if you walk the halls in our 
beautiful new facility, Benjamin Russell Hospital for Children, 
our talented staff in some cases do not look like they are too 
many years past being children themselves. But not to worry. 
Because we work in teams and we are very conscious and 
deliberate about proving competencies of the staff, mixing 
teams based on age, I think very pertinent to today's 
discussion, so that you always have a mentor, you have an 
experienced veteran team member, for example, in the case of a 
staff nurse, we really love it if we have a 15 to 20 plus year 
tenured staff nurse who has seen it all.
    It is not uncommon at all, probably happens every week, 
that a board-certified physician is working with a child, and 
very experienced physicians, and on occasion an experienced 
nurse will say, ``That is not what I see going on here,'' and 
that physician will trust the nurse and dig a little farther, 
and sure enough, experience trumps diagnostics and medical 
training. So the important message is, in our case--and I 
suspect in most every industry and company--it really benefits 
you from a business and customer and outcomes point of view to 
have a mix of skill and age and experience.
    I guess I would close by saying I do not think we have 
scratched the surface necessarily as an industry in HR, a 
profession, in understanding the business, the tremendous 
business value of having age diversity across the whole 
spectrum in your workforce. And we could talk about other 
important forms of diversity, but today's subject relates to 
age.
    I will close by saying that the legendary Florida State 
football coach, Bobby Bowden, coached there I think well into 
his 70's, and late in his career, he became tired of media 
asking him, ``Have you thought about retiring?'' And he finally 
said, quoted a legendary quote, response, ``You know, I am not 
really in a hurry to retire because after that there is only 
one more big event in life.''
    [Laughter.]
    Mr. Dean. So we embrace having workers at every age. We do 
not encourage people to retire. We let them have their hands on 
the wheel related to that. We have worked very hard at up-
skilling people and redirecting careers, mid-career people want 
to be part of the health care mission like ours. And I just 
again thank my fellow witnesses and Senator Jones and this 
Committee on Aging for the opportunity to speak today.
    Senator Jones. Great. Thank you.
    Now, I will ask some questions, but if anybody wants to 
chime in with any answers, please feel free. We can have as 
much of a dialog as we need. I have got some specifics here, 
but there may be things that you all want to say.
    I want to first ask Ms. Strauss, it is no secret that women 
generally are disproportionately affected by a lot of issues in 
the workplace, including age discrimination and unemployment. 
The AARP Foundation introduced the Women's Economic Stability 
Initiative, WESI, to provide targeted support for older women. 
Older women obviously get kind of a double whammy. They are 
older and they are women.
    So what prompted AARP to develop the new initiative? And 
what do you think contributes to the gender employment gap? And 
can Congress do anything to help? Loaded questions.
    Ms. Strauss. Lots of questions. Thank you, Senator.
    Well, the research that you mentioned is the reason that we 
ended up working on--focusing on the issue of older women. It 
is widely known that 75 percent of the elderly poor are women 
and women live longer. So when we looked at how we were going 
to address poverty, we moved up the age ladder, and we said, 
OK, we are going to look at how do we help women stay employed 
for as long as they need to. And then we applied for a grant 
from the Corporation for National Community Service that 
allowed us to be able to host a program where we were able to 
actually pilot the vision that we had, which was not just 
looking at training or one piece of the puzzle for job 
candidates, but really looking at the whole experience.
    One of the things that we know we are pretty good at is 
marketing and communications and finding women, finding people 
and bringing them out and having them step forward so they can 
take advantage of the services that are available. So the 
design that we tested with the different community colleges 
was--well, we called it ``end-to-end customer experience.'' It 
started with the Back to Work 50+ title named for the program 
nationally, and then using AARP's megaphone to say come here, 
find us, and then they could call, very quickly get connected, 
and then we had great partners who helped us create the models 
that included the things that we know older adults need, 
individual time to have individual coaching where they are 
looking at their skills, looking at their interests, seeing how 
that matches with the job market, and then working through a 
little bit of their own frustrations around why they are not 
employed, and then understanding how to navigate the process 
and build their skills.
    What can Congress do? Well, I think I pointed to two things 
in my testimony that I will reflect back to. The first is the 
Senior Community Service Employment Program is really important 
for older women, and we have gone through a couple of years now 
where that has been slated for elimination, and we are 
completely and absolutely opposed to that, and we would hope 
that you would be as well.
    The second thing I would say is the Workforce Investment 
Act and the public workforce system is ready to and interested 
in serving older workers, and we have been spending the last 
five years working with community colleges and American Job 
Centers to create tools and resources that they can easily 
utilize, be able to adjust their current staffing to be able to 
focus on this population and do it a little bit differently, 
and speak with employers in their communities to help them 
understand how age discrimination or ageism is happening in 
their own companies. So Congress can help us by helping to 
raise awareness within the Department of Labor and the public 
workforce system on behalf of this population and supporting--
continuing to support SCSEP.
    Senator Jones. Great. Thank you.
    Dr. Payne, you administer Jefferson State's WESI Program. 
Have you found any particular solutions or strategies to be the 
most effective in supporting older female workers?
    Dr. Payne. We definitely have found that there are some 
strategies that work more than others. One of the strategies 
that we really love is the individual and the group coaching. 
With the individual coaching, as Lori says, it gives us an 
opportunity to talk one on one with the job candidate to figure 
out what their hard skills and soft skills are.
    So one of the things we found is our Back to Work 50+ 
candidates are more likely to shortchange themselves in regards 
to how valuable life experience is. Even if they have never 
worked or they have not received a paycheck in the last couple 
years, it does not mean that they have not utilized soft 
skills. And we all know how valuable those soft skills are, 
just being able to communicate, being able to showcase those 
listening skills.
    Also, with the group coaching, we found that that is an 
indicator for success, again, because they are able to tell 
their stories to one another. We have had Back to Work 50+ 
candidates that have gone on to become fast friends. They have 
gone to each other's houses. And so we meet candidates 
sometimes that they may be self-supporting; they may be empty 
nesters; everybody may have passed away. And so they feel 
isolated. So with that group coaching, it supplements the 
individual because we can do one-on-one, but the group 
coaching, they get to make connections with other individuals 
and hear stories that are similar to theirs, and there is 
strength in unity.
    Senator Jones. Great. Again, if anybody wants to add 
anything, just let me know.
    I would like to ask Ms. Dorsey-Collins, first of all, I am 
really pleased that you enrolled in the Certified Production 
Technician because I hear from Alabama's auto manufacturers all 
the time about the need for skilled workers, so that is great. 
I am hoping that we are going to expand that a good bit as 
well.
    You mentioned you kind of found out about the CPT program 
by accident. Tell us a couple things. What do you think we 
might do to get that word out a little bit better? And once you 
saw it, how did you decide that might be a good fit for you?
    Ms. Dorsey-Collins. Well, when I stumbled across the 
program, I was very excited that there was something available 
for 50+ candidates. And I think to give the program more 
awareness is increased advertising, maybe TV, radio, flyers, 
incentives, meet-and-greets, or just especially social media. 
But the program, I am so ecstatic that it is available for 
people like me and that can allow me to just--like Dr. Payne 
said, when you do not realize about your soft skills, maybe you 
are taking care of an elderly person and not knowing that that 
could be a soft skill that you could use and be qualified for a 
position in the workplace that you never just thought that, you 
know, you would be available to do. But that is pretty much it.
    Senator Jones. OK. Ms. Baker, and maybe, Dr. Payne, you 
would want to weigh in on this as well, how does the Back to 
Work 50+ Program and the SCSEP program help participants--how 
do they help determine what training and employment 
opportunities to pursue? And do you partner with businesses and 
industries in the area to help find or locate those 
participants and kind of identify the opportunities that are 
out there?
    Ms. Baker. There are some partnerships with business and 
industry, but usually they are going to be the government 
agencies and the nonprofits. We can also profit by way of on-
the-job training, which means that we will pay---if it is not a 
nonprofit agency, we can ask for--have a situation where we can 
pay the wage of that person providing that there is an 
opportunity for that person to be hired at the end of the OJT.
    What was the first part of your question, please?
    Senator Jones. The first part was, you know, how do you 
help them, direct them to the areas that they are interested in 
and the opportunities that are out there?
    Ms. Baker. And we do that by doing a good assessment. We 
have to do an initial assessment and an initial individual 
employment plan. And then sometimes it may change what that 
person wants to do. So what we do is we will go in and we will 
do a reassessment every six months and update the individual 
employment plan.
    Also, in between that, sometimes a participant, we may 
change what we call their ``host agency,'' and if we change 
their host agency, we also need to do another reassessment 
because we always want to make sure that we are setting them up 
to succeed and not fail by making sure that we are finding all 
of the skills that they have, the skills that they need to 
develop in working with us.
    Senator Jones. All right. Dr. Payne, do you want to add 
anything to that?
    Dr. Payne. I will. There are a couple of different things 
that we do. About 80 percent of our candidates wants to do 
something administrative, and we know from hearing from Lori 
that sometimes those PC skills, those technology skills are 
lacking. So we use a Northstar Digital Literacy Assessment, so 
we assess everybody's basic computer skills. Individuals, we 
are looking at a numerical value, but I am a qualitative 
person, so I am also concerned with what does the wording say. 
And we are trying to ascertain who could benefit from a basic 
computer skills course.
    Another partnership that we have is with the college's 
Workforce Development Program that is directed by Kay Potter, 
who is here in the crowd. Kay does a wonderful job of working 
with industries to develop these short certificate training 
programs that are aligned with in-demand jobs. So we use an 
assessment called the ``Virtual Career Network'' to give our 
Back to Work 50+ candidates an assessment that looks at their 
interests and also looks at what hard skills and soft skills 
they have. And we see if they are aligned with in-demand jobs 
that are offered through training programs in our workforce 
development.
    If we have someone that has an interest that may not 
necessarily be in demand, then we are all about making sure 
they have information about the outlook of that career path and 
about the potential career trajectory, because we are also not 
about denying an individual if they have had a dream for 30, 40 
years to work in a certain career path. So, primarily, we do 
the one-on-one coaching. Again, because I am qualitative, we 
supplement that with a basic computer skills assessment to 
identify those technical deficiencies, and we also rely on the 
Virtual Career Network, and we really on an assessment called 
``16Personalities,'' and Virtual Career Network and 
16Personalities are both free and available for anyone to use. 
And the 16Personalities assessment just tells us what type of 
leader or non-leader a candidate is, and we talk about how that 
applies to the work setting that they envision themselves in.
    The second part of your question is between Kay's area, 
workforce development, and the Career Center, we are talking 
with human resources personnel, and we are trying to find out 
what are their employment needs, and then we are trying to find 
the best way to train our Back to Work 50+ candidates to meet 
those needs.
    The partnership we have with the Department of Labor has 
also been valuable because that gives us access to human 
resources personnel that we may not have had the opportunity to 
meet so that we can highlight both the Back to Work 50+ program 
and highlight diversity among the candidates that participate.
    Senator Jones. Great. Thank you.
    Mr. Dean, obviously older workers face really unique 
challenges in the workforce, including managing their own 
health problems, juggling caregiver demands with their busy 
work schedules. What is it that employers, and if Children's 
has anything unique, can do to empower workers and help them 
thrive in the face of such challenges?
    Mr. Dean. I mentioned in my opening statement the notion of 
instead of workplace policies that are one size fits all, if 
you will, that instead they recognize that the real goal is to 
attract and secure and retain the talent to run your 
organization, and that is going to cut across generations and a 
whole diverse array of worker profiles. Then it becomes really 
important to really push and insist on the part of your 
managers and even in your workplace policies, which I am one of 
the owners of, flexibility. That is a critical word.
    Sometimes we find we will have a manager, well intending, 
who just finds it more convenient or easier to have--you know, 
to want 40-hour full-time workers almost no matter what. And 
you have conversations with them, and usually we are 
successful, our H.R. consultants, at winning them over that you 
have got--we have a 65-year-old talented worker who really 
knows their way around, knows our health system, knows what we 
do, is great at a job, is well liked by their team members, but 
they really either are not--no longer want to work 40 hours a 
week or in many cases are not able to, the Senator's point 
about the demands of often aging parents and so many other 
issues.
    Oh, by the way, the growing number of grandparents who are 
still parenting children themselves, you just thought your 
parenting was finished.
    So we really push flexibility. It is a win if we keep any 
of our talent online, whether that is a 10-hour-a-week 
schedule, an on-call schedule. We have, amazingly, some workers 
that really have officially retired and they love the freedom 
to do what they want, but they loved our organization so much, 
they really love the idea of they have this skill and they are 
willing to be on call. So if we have someone out on maternity 
leave or whatever it may be, we can call them, and they are 
willing to come work for a start-and-finish, a sunset period.
    There are so many more examples that given our limited time 
we cannot go into, but I think it is all about developing--
listening to and having a dialog with workers at every segment, 
and particularly related to today, workers over 50+, and find 
out what do they want. What would it take for you to stay in 
our health system longer? And as I look at our inflow of 
millennial workers, it is only going to grow, and the outflow 
of boomers who plan to retire, it is kind of an alarming 
question I do not have the answer to yet. Can we, in fact, 
count on our millennials to put in 20-plus-year careers at the 
same organization? If the answer to that is no, then we have 
got a lot of work to do in a short period of time, Senator.
    Senator Jones. All right. Thank you.
    Ms. Strauss, I want to go back to you real quick, because 
obviously we are hearing what a great program this is at 
Jefferson State. I know there are other--how many are there 
around the country like this? Like 20-something maybe?
    Ms. Strauss. Yes, I think so. Right now we have 16 sites 
and we have 26 locations.
    Senator Jones. OK. I am wondering, what can we do? We have 
somebody else--I mean, this is Jefferson State Junior College. 
We have got a really great junior college system in Alabama. If 
other sites in Alabama would like to do this, what would be the 
quick steps that they could take to try to partner with AARP 
and get one of these things going?
    Ms. Strauss. Well, that is a beautiful question, Senator. 
It is exactly what we are doing right now. So this year we 
started to expand Back to Work 50+ through strategic 
partnerships that we call ``non-grant partnerships.'' Our 
startup includes grant funding, but now we have created a 
turnkey version of the program so that it is literally--the 
first step is an e-mail to me to say that people are 
interested, and then we explain how to start, and we give them 
access to a Web site that has our playbook and our materials. 
They sign a non-financial letter of agreement with us, and we 
start. And this is something AARP Foundation is committed to, 
to provide the infrastructure and the assets.
    You mentioned earlier the importance of outreach. We have 
created marketing materials that were created based on what we 
hear older workers need to hear, like messages like, ``You have 
the experience, now regain the confidence. Call this 1-800 
number to get started.'' Then they call a 1-800 number, they 
register for a workshop, and they start the program.
    So an e-mail to me, and we have a processing--we are really 
looking to grow right now, so thank you.
    Senator Jones. All right. Well, I will tell you what we are 
going to do. This lady here, Ms. Campbell, she will send out 
something to all our junior colleges, she and Rebecca Howard, 
who is my education person, to try to get this done.
    Ms. Strauss. Excellent.
    Senator Jones. At least to get the word out from our 
office. OK?
    Ms. Strauss. Thank you so much.
    Senator Jones. Thank you very much.
    So, Ms. Dorsey-Collins, back to you. You are selling 
cemetery lots now.
    Ms. Dorsey-Collins. Yes.
    Senator Jones. But you are certified. You finished that 
technician. What are your next steps? What are you hoping for?
    Ms. Dorsey-Collins. My next step is to finish the 
Production Certification Program and hopefully to gain 
employment with one of the manufacturing companies locally.
    Senator Jones. One of the automobile manufacturing 
companies?
    Ms. Dorsey-Collins. Yes.
    Senator Jones. That is Montgomery or Tuscaloosa?
    Ms. Dorsey-Collins. Yes.
    Senator Jones. You are good with that?
    Ms. Dorsey-Collins. I am good with that.
    Senator Jones. Ready to move?
    Ms. Dorsey-Collins. I am ready to move.
    Senator Jones. Just out of curiosity, with some of the 
folks, Dr. Payne, Ms. Baker, do you see that older folks that 
you get are willing to relocate on occasion if they need to?
    Ms. Baker. On occasion, yes. The biggest issues that I have 
seen are seniors who live in the rural areas and driving long 
distances, because most of those employment opportunities are 
going to be in the municipalities, and if you live in----
    Senator Jones. You can live in a lot of places in Alabama. 
Just pick one.
    Ms. Baker. Rural Alabama does not want to drive into 
municipalities, so that is the issue that we have, 
transportation.
    Senator Jones. Is there a way somehow to focus on our rural 
areas? We are trying to do a lot with, you know, the rural 
parts of the state. Is there a way to kind of identify those 
areas that we might can get into? Or is it just kind of--not 
luck of the draw, but----
    Ms. Baker. I think we can identify them, yes. Whether we 
can change that desire for those people to drive into 
municipalities, that is not going to happen readily.
    In terms of employment, I think what we need to do is 
identify a way to get employers to understand that these are 
very good and valuable workers, and I think as you mentioned 
earlier that sometimes you have your employees working part-
time instead of full-time. Most seniors are looking for part-
time employment, and what I have tried to impress upon some 
individuals or industries that I have spoken with is that 
sometimes that can help you because if you hire two people 
part-time, then you are usually saving money with benefits, 
because most seniors already have insurance so they are not 
looking for insurance, and they are really not that concerned 
about vacation and sick days.
    Senator Jones. Right. So one of the things we need to try 
to do is maybe identify employers in these rural areas so they 
do not have to drive as far.
    Ms. Baker. Yes.
    Senator Jones. That kind of leads into another area where I 
wanted to go, and that is--oh, I am sorry.
    Dr. Payne. I am sorry, Senator Jones. I wanted to piggyback 
off of what you were asking.
    Senator Jones. Sure.
    Dr. Payne. In regards to our Back to Work 50+ candidates, 
on occasion we get individuals that are in a position to pick 
up and move. But since 90 percent of the individuals who come 
to Back to Work 50+ are underemployed or not employed, they are 
not in a position to pick up and move.
    So one of the things that we have done in regards to the 
MSSC Automotive Initiative is we have also looked at industries 
that need Certified Production Technicians that are not 
necessarily in a rural area. So we have looked at Autocar, we 
have looked at LTEC, because we realize that for some 
individuals transportation may be an issue.
    For us at our Jefferson campus, we do have the bus that 
comes right on campus, so we are more likely to get candidates 
there that have issues with transportation. So I will say that 
is one of the things that we have worked on, forming 
partnerships with entities that may have either a ride-share 
program--so we work with a couple of different banks that are 
downtown that have a ride-share at certain peak times of the 
year, and so our Back to Work 50+ candidates have been able to 
take advantage of that, and also look at industries that are 
closer to where they live so it would not be such a hardship 
for them to get there.
    Senator Jones. OK. Great. Well, that kind of leads in: What 
are you guys seeing in terms of regional trends or differences? 
Is there something unique to Alabama that, you know, you have 
seen for older Alabamans versus another area of the country? 
There may or may not be. I am just asking.
    Dr. Payne. Well, piggybacking off what Ms. Baker said 
again, lack of transportation has been an issue. So in some of 
our counterparts--and Lori can attest to this--that are in 
larger areas where the public transportation system is more 
widely used, they can branch out more, candidates can branch 
out more for training programs. They can branch out more for 
employment. So one of the issues that our 50+ candidates are 
facing and other individuals are facing is that our public 
transportation system is not as strong as it should be.
    I will say that with our Back to Work 50+ candidates, 
something that has been more unique is with the group coaching 
session and them forming partnerships. We have had Back to Work 
50+ candidates that have picked up their friends that they have 
met in the 7 Smart Strategies Workshop, they have picked up 
their new friend that they have met in a coaching session, and 
they have done ride-share on their own. And so part of the Back 
to Work 50+ model is that we are providing about 90 percent of 
the services, but the other ten percent is the candidates 
getting to know each other, to feel each other out, and forming 
those relationships that we want to transcend the program but 
to last 10, 15 years after they were Back to Work 50+ 
participants. And when we are talking to our counterparts that 
are running Back to Work 50+ Programs, we are seeing some of 
those relationships. But I think because of the transportation 
issue, we have seen that a little bit stronger in Alabama.
    Senator Jones. Great.
    Ms. Strauss. I am going to piggyback on what Dr. Payne 
said. One of the things that we see nationally that is unique 
about what is happening here in Birmingham is job candidates in 
Birmingham, they want training. And so the grant that we 
provide to Jefferson State through the Federal Corporation for 
National and Community Service they are using for training and 
scholarships, and that is very--that is unique and important 
because it is not available to older adults in general.
    One of the age discrimination issues that we always focus 
on is the fact that people tend not to have access to training 
in their workplace as they age, and there are some 
misperceptions or assumptions that employers make that older 
workers either are not interested or they should be invested 
in, which then causes, when they become unemployed, then they 
are behind the eight ball, and then they are trying to figure 
out how to get access to training. So the interest in training 
in this location is huge compared to other places, and the 
program that Dr. Payne and Kay Potter have created builds on 
that interest, and so they have a lot more people in training 
and are moving forward in occupational skills than other places 
in the country.
    Senator Jones. Good. Mr. Dean, that kind of leads into 
something I wanted to ask you. Correct me if I am wrong, but it 
seems to me that Children's commitment to diversity with an 
older population of workforce is really kind of two-fold. One, 
you may have people that kind of grow with you, age with you, 
which requires that same level of training to keep them, 
especially in the health care delivery field. But is there also 
a component of attracting those older workers as well that may 
be new to the field? So talk about that commitment and what 
Children's does to maintain both of those?
    Mr. Dean. A powerful question. Thank you for the 
opportunity to comment on that. I guess we are uniquely 
relevant to this discussion in this respect, and that is that, 
of course, we are proud of this, but it presents unique 
business opportunities and challenges that we have. It is 
really common for talented workers to come to work at 
Children's of Alabama either immediately after their education 
or skills they acquire, however they do, certifications, 
nursing school, and never leave Children's of Alabama until 
they retire. And in other cases they may work with us 10, 15 
years, be at home with children for a while, return to the 
workforce, go to other companies for opportunities. And every 
two weeks, when I welcome our new employees at orientation, I 
ask--and I put them at ease, and I am not calling them out to 
embarrass them, but just to celebrate. Invariably, we have half 
a dozen who are rehires, so they come back for a second tour of 
duty.
    So if you ask any H.R. executive how they feel about 
retaining talent, the answer you are going to get--and I think 
it is almost always sincere--is we love it if we have full 
career staff that will be part of our company. But we are also 
realistic that it is a very mobile world. We love our 
Millennial workers, but we are also realistic that for 
different big societal reasons, developmental generational 
reasons, they may view the world differently than our parents 
or grandparents did in terms of 30 years at the same company. 
And that is not necessarily bad. Maybe they are the smart ones, 
that they are really moving their career like free agents where 
the opportunity is. So we have that.
    I will give you one example, and it is becoming a growing 
example, of how we look outside the company, Senator, and have 
instances in which we can be part of changing the career 
direction of someone. His name is Bobby, and it is pretty cool 
to talk about a staff nurse that is male because that has been 
a unique challenge for every hospital. It is a heavily female-
dominated career track.
    Bobby came to me, he was kind of referred to me, and he was 
in a sales and service role, a 48-year-old gentleman, and he 
just really had an interest in a nursing career. And I gave him 
some shadowing experiences, and fortunately, our nursing 
management is happy to do that if there is promise there. He 
did his part, applied at Jefferson State for nursing school, 
completed it, passed the boards, and here is mid-career, and he 
is in our emergency department, one of the most valued nurses 
that they have hired. And he never dreamed he would be in a 
nursing career even at age 45.
    Now, those are happening organically right now. What I 
think we should work more aggressively at, maybe other 
companies should, is to partner with higher education and 
institutions who can help us. They are better at training 
skills. The 4-year educational track is not necessarily for 
everyone. There is growing legitimate debate over the return on 
investment with the cost of education. So where we see 
talented, capable people and we can more rapidly up-skill them 
and they are ready to go to work, and I think that is going to 
become a much more prevalent opportunity for us.
    Senator Jones. Great. So we are kind of winding down with 
the official phase. I want to end with two things: one, a 
question about age discrimination; and then just also if 
anybody would like to add anything that we have not covered, 
feel free to do that. But, unfortunately, studies show that age 
discrimination remains a significant issue. Often we think of 
discrimination in terms of race and religion and gender, but 
clearly age discrimination is a significant problem affecting 
older adults in our workforce.
    Throughout your work, have you identified any solutions for 
addressing age discrimination other than the obvious that we 
have talked about here--which, quite frankly, is a culture, a 
changing culture, which I think you are all promoting and I 
applaud. That may be the most significant thing. Are there 
other issues--I know there are some things pending in Congress 
that we might can do that we want to look at. Anything about 
that? And I would also like as part of this wrap-up, if anybody 
wants to just throw out anything that we have not covered by 
way of questions, feel free to. We have got a few more minutes 
before we kind of close out and open it up to the audience. So 
discrimination and just general topics.
    Dr. Payne. One of the things that we have noticed is that a 
couple of the big names have started taking the date of birth 
off of the employment application. So Regents Bank is one of 
the employers that we work with for our Back to Work 50+ 
candidates, and they no longer have your date of birth on their 
employment application. So they will not know how old you are 
until you actually show up for the interview. So that may be a 
potential solution as more companies see how Regents Bank fares 
and how other entities fare if they want to remove that from 
the application.
    Senator Jones. That is an interesting concept, kind of the 
same thing with people who have a prior criminal conviction, 
they have removed that from some of those things, too.
    Yes, Lori?
    Ms. Strauss. I will just add that we are in a really unique 
time right now with very low unemployment. Companies are pretty 
desperate for talent, and they are coming to us and asking for 
help to recruit, to find, recruit, and train older workers. And 
AARP has a set of resources right now, AARP.org/employers, that 
has really simple things for H.R. departments to be able to use 
to help their team members or the managers just learn a little 
bit about what misconceptions they might have. We also talk 
with employers about changing their recruitment materials so 
that they include multi-generational images, changing their 
recruitment strategies so that they are not always focusing on 
places where just younger workers might be, and to reach out to 
programs like SCSEP and Back to Work 50+ resourcing partners.
    Senator Jones. OK.
    Ms. Baker. I would just like to add to that. One of the 
things that SCSEP does is--because we really have some great 
talent with the SCSEP participants. We encourage them and we 
help them to build a functional resume versus a chronological 
resume, because I feel--and it has been proven--that if they 
can get in the door, they can sell themselves. But they must 
get in the door without what it states on the resume.
    Senator Jones. Good. Anybody else want to add anything 
before we close out? Mr. Dean?
    Mr. Dean. It is an important subject, and, you know, it 
would be normal, I guess, to assume that if you ask a question 
about employment and legal risk to an H.R. leader, then we are 
going to think in terms of how to avoid a lawsuit. But to me 
that is the bare minimum, not a very inspiring way to view this 
important question. And I think organizations need to--we need 
to apply some peer pressure, and I think it is already 
happening, to your point, Lori, of necessity. There is not a 
talent pool out there. When I need talent, by and large, and 
every other company, we are stealing it from each other. And so 
the business necessity and urgency is there in case there are 
any vestiges of age discrimination that go on in the hiring 
practices of a manager or a company to rethink that and prove 
to yourself that you are not by bringing in that supply of 
talent, and I think just the presence of it without talking 
about it and preaching about it necessarily, although that does 
not hurt either, and setting the tone at the top can radically 
change that. We do not have that difficulty because many of us 
in important leadership positions are hardly junior in terms of 
age ourselves, and so more and more there is a vested interest 
to have a very balanced workforce in terms of age demographics.
    Senator Jones. All right. Anybody? One more OK.
    Ms. Baker. One more thing, which is skills-based hiring 
practices are a promising practice that is being supported and 
promoted by Skillful and the Markle Foundation. And when 
employers use skills-based hiring practices, they take away 
implicit bias. And when employers are looking at skills alone, 
older workers tend to rise to the top because they have the 
experience and they have the background. And so that is a 
promising practice that we are partnering with that we think is 
really important for employers to take advantage of.
    Senator Jones. Great. Well, thank you all, to all of our 
witnesses. You were just an outstanding panel today.
    I also want to thank Jefferson State for also allowing us 
to be here today and providing the accommodations. We really 
appreciate the hospitality. Also to the staff here who helped 
put this thing together, we as Senators cannot function without 
this incredible staff that we have.
    Our Committee members will have until Monday, December 
10th, to submit additional questions for the record, so you may 
be receiving some additional questions.
    Finally, over here on the side, we have a Committee 
pamphlet called ``America's Aging Workforce.'' If you would 
like to take a look at some of the work that the Committee has 
done and some of the findings, please feel free to pick that 
up.
    So, with that, I will adjourn the hearing. Thank you.
    [Whereupon, at 2:35 p.m., the Committee was adjourned.]

      
=======================================================================


                                APPENDIX

======================================================================


                      Prepared Witness Statements
     
      
=======================================================================


                  Additional Statements for the Record

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
